 For Public Release

U.S. Department of Commerce  
Office of Inspector General 



2010 Census: 
First Quarterly Report  
to Congress 
Report OIG‐19791‐1 
August 2009 




                                 
                                 Report In Brief
                                              U.S. Department of Commerce Office of Inspector General
                                                                    August 2009



 Why We Did this Review U.S. Department of Commerce Office of Inspector General
The Supplemental Appropria-
tions Act of 2008 gave the Census
Bureau an additional $210 mil-        2010 Census: First Quarterly Report to Congress (OIG-19791-1)
lion to help cover spiraling 2010
decennial costs stemming from
the bureau’s problematic efforts      What We Found
to automate major field opera-
tions via handheld computers,
                                      In our review, we discovered that the bureau’s ability to effectively oversee decennial
major flaws in its cost-estimat-
ing methods, and other issues.
                                      progress has long been hampered by inherent weaknesses in its systems and information for
The act’s explanatory statement       tracking schedule activities, cost, and risk management activities. The overarching problem
required the bureau to submit to      is that these systems and information are not integrated in a manner that allows for effective
the Senate and House Commit-          program management measured against earned value metrics—in other words, the bureau
tees on Appropriations a detailed     does not have a direct link between the schedule of specific activities, the cost of those
plan and time line of decennial       activities, and the work actually accomplished. This makes it difficult to forecast cost
milestones and expenditures,          overruns and underruns because of this inability to generate earned value measures.
and a quantitative assessment of
associated program risks within       The bureau implemented a risk management process that was an improvement over the prior
30 days.                              decennial, but issues remain. Specific limitations that impact the bureau’s management of
                                      the decennial census include the following:
OIG was also required to provide
quarterly reports on the bureau’s          •	 not using critical path management
progress against this plan. The
objective of this report was to            •	 no thorough up-front review of project start and end dates
determine the limitations in               •	 limited integration of major contractor activities
the bureau’s ability to oversee            •	 no integration of schedule activities and budget plan/expenditure information
the systems and information for
tracking schedule activities, cost,        •	 unreliable cost estimate
and risk management activities.            •	 lack of transparency in use of contingency funds
 Background                                •	 lack of systematically documented program and funding decisions
                                           •	 risk management activities that are behind schedule
Since first conducted in 1790,
the constitutionally mandated          •	 varying quality and content of mitigation plans
decennial census field activities
have largely been administered     In addition, we found that the bureau did not clearly and accurately report on the status of
via paper and pencil. The 2010     the risk associated with the Field Data Collection Automation (FDCA) system, which
Census plan included significant   includes the handheld computers, and ceased reporting it as a key issue in the
expansion of automation, using     Monthly Status Report (MSR), even though the issue had not been adequately resolved.
handheld computers to verify
addresses (address canvassing),
conduct in-person surveys with    What We Recommended
households that did not return
their questionnaires (nonresponse
follow-up), and collect data from This report does not provide recommendations. We will forward in a separate document to
a nationwide sample to evalu-     the Census Bureau recommendations based on our work, which include
ate the accuracy of the decennial
count (coverage measurement).          •	 strengthening its process for preparing and reviewing MSRs to ensure that all key
Nonresponse follow-up is the               issues and significant risks—as well as other information—are fully and accurately
most expensive and                         reported;
labor-intensive operation of the
decennial census. Increasing           •	 for the 2020 Census, using its project management software to integrate planned
costs and automation problems              budget and expenditure information with schedule activities to better track the
prompted the bureau’s decisions
                                           status of available funds, forecast impending overruns and underruns so that
to abandon the handheld
                                           funds can be reallocated promptly, and improve the transparency of decennial
computers for nonresponse
                                           status to oversight and stakeholders; and
follow-up and coverage
measurement operations, but to
still use the handheld computers       •	 for the 2020 Census, developing a robust and transparent process to document
for address canvassing.                    significant decisions and trade-offs in order to understand estimated costs.
                                                        UNITED STATES DEPARTMENT OF COMMERCE
                                                        The Inspector General
                                                        Washington. D.C. 20230



August 6, 2009

The Honorable Alan B. Mollohan
Chairman
Subcommittee on Commerce, Justice,
  Science and Related Agencies
Committee on Appropriations
U.S. House of Representatives
Washington, D.C. 20515

Dear Mr. Chairman:

This report responds to the requirement of the Supplemental Appropriations Act of 2008 to
report on a quarterly basis the status of 20 10 Census operations. The act gave the Census Bureau
an additional $210 million to help cover escalating 2010 decennial costs and required the bureau
to submit to the Senate and House Committees on Appropriations a detailed plan and time line of
decennial milestones and expenditures, and a quantitative assessment of associated program risks
within 30 days. It further required the Office of Inspector General to provide quarterly reports on
the bureau's progress against this plan. Census completed its baseline submission in May 2009.

Our first quarterly report focuses on key limitations in the bureau's ability to oversee the systems
and information for tracking schedule activities, cost, and risk management activities for the
2010 Census. Our review found a number of limitations to effective oversight, including lack of
integration of schedule activities and budget plan/expenditures, an unreliable cost estimate for
the decennial census, delayed risk management activities, and lack of transparency in monthly
status reports.

We will issue a separate memorandum to the Census Bureau director containing
recommendations to address issues identified as a result of our fieldwork. We have sent identical
letters to Representative Frank R. Wolf, Senator Barbara A. Mikulski, and Senator Richard C.
Shelby.

If you have any questions, or if we can be of further assistance, please do not hesitate to contact
me at (202) 482-4661.



                                                      Sincerely,




                                                      Todd 1. Zinser


Attachment
Cc:   Representative   Patrick 1. Kennedy
      Representative   Chaka Fattah
      Representative   Adam Schiff
      Representative   Michael Honda
      Representative   C.A. "Dutch" Ruppersberger
      Representative   Peter 1. Visclosky
      Representative   Jose E. Serrano
      Representative   David R. Obey, Ex Officio
      Representative   John Abney Culberson
      Representative   Robert B. Aderholt
      Representative   Jo Bonner
      Representative   Jerry Lewis, Ex Officio
                                                         UNITED STATES DEPARTMENT OF COMMERCE
                                                        The Inspector General
                                                        Washington. D.C. 20230



August 6, 2009

The Honorable Frank R. Wolf
Ranking Member
Subcommittee on Commerce, Justice,
  Science and Related Agencies
Committee on Appropriations
U.S. House of Representatives
Washington, D.C. 20515

Dear Representative Wolf:

This report responds to the requirement of the Supplemental Appropriations Act of 2008 to
report on a quarterly basis the status of 20 10 Census operations. The act gave the Census Bureau
an additional $210 million to help cover escalating 2010 decennial costs and required the bureau
to submit to the Senate and House Committees on Appropriations a detailed plan and time line of
decennial milestones and expenditures, and a quantitative assessment of associated program risks
within 30 days. It further required the Office of Inspector General to provide quarterly reports on
the bureau's progress against this plan. Census completed its baseline submission in May 2009.

Our first quarterly report focuses on key limitations in the bureau's ability to oversee the systems
and information for tracking schedule activities, cost, and risk management activities for the
2010 Census. Our review found a number of limitations to effective oversight, including lack of
integration of schedule activities and budgetplanlexpenditures, an unreliable cost estimate for
the decennial census, delayed risk management activities, and lack of transparency in monthly
status reports.

We will issue a separate memorandum to the Census Bureau director containing
recommendations to address issues identified as a result of our fieldwork. We have sent identical
letters to Representative Alan B. Mollohan, Senator Barbara A. Mikulski, and Senator Richard
C. Shelby.

If you have any questions, or if we can be of further assistance, please do not hesitate to contact
me at (202) 482-4661.




                                                      Sincerely,




                                                      Todd J. Zinser


Attachment
                                                        UNITED STATES DEPARTMENT OF COMMERCE
                                                        The Inspector General
                                                        Washington. D.C. 20230



August 6, 2009

The Honorable Barbara A. Mikulski
Chairwoman
Subcommittee on Commerce, Justice,
  Science and Related Agencies
Committee on Appropriations
United States Senate
Washington, D.C. 20510

Dear Madam Chairwoman:

This report responds to the requirement of the Supplemental Appropriations Act of 2008 to
report on a quarterly basis the status of 20 10 Census operations. The act gave the Census Bureau
an additional $210 million to help cover escalating 2010 decennial costs and required the bureau
to submit to the Senate and House Committees on Appropriations a detailed plan and time line of
decennial milestones and expenditures, and a quantitative assessment of associated program risks
within 30 days. It further required the Office of Inspector General to provide quarterly reports on
the bureau's progress against this plan. Census completed its baseline submission in May 2009.

Our first quarterly report focuses on key limitations in the bureau's ability to oversee the systems
and information for tracking schedule activities, cost, and risk management activities for the
2010 Census. Our review found a number of limitations to effective oversight, including lack of
integration of schedule activities and budget plan/expenditures, an unreliable cost estimate for
the decennial census, delayed risk management activities, and lack of transparency in monthly
status reports.

We will issue a separate memorandum to the Census Bureau director containing
recommendations to address issues identified as a result of our fieldwork. We have sent identical
letters to Senator Richard C. Shelby, Representative Alan B. Mollohan, and Representative
Frank R. Wolf.

If you have any questions, or if we can be of further assistance, please do not hesitate to contact
me at (202) 482-4661.



                                                      Sincerely,




                                                      Todd J. Zinser


Attachment
Cc:   Senator   Daniel Inouye
      Senator   Patrick Leahy
      Senator   Herb Kohl
      Senator   Byron Dorgan
      Senator   Dianne Feinstein
      Senator   Jack Reed
      Senator   Frank Lautenberg
      Senator   Ben Nelson
      Senator   Mark Pryor
      Senator   Judd Gregg
      Senator   Mitch McConnell
      Senator   Kay Bailey Hutchison
      Senator   Sam Brownback
      Senator   Lamar Alexander
      Senator   George Voinovich
      Senator   Lisa Murkowski
                                                         UNITED STATES DEPARTMENT OF COMMERCE
                                                        The Inspector General
                                                        Washington. D.C. 20230



August 6, 2009

The Honorable Richard C. Shelby
Ranking Member
Subcommittee on Commerce, Justice,
  Science and Related Agencies
Committee on Appropriations
United States Senate
Washington, D.C. 20510

Dear Senator Shelby:

This report responds to the requirement of the Supplemental Appropriations Act of 2008 to
report on a quarterly basis the status of2010 Census operations. The act gave the Census Bureau
an additional $210 million to help cover escalating 2010 decennial costs and required the bureau
to submit to the Senate and House Committees on Appropriations a detailed plan and time line of
decennial milestones and expenditures, and a quantitative assessment of associated program risks
within 30 days. It further required the Office of Inspector General to provide quarterly reports on
the bureau's progress against this plan. Census completed its baseline submission in May 2009.

Our first quarterly report focuses on key limitations in the bureau's ability to oversee the systems
and information for tracking schedule activities, cost, and risk management activities for the
2010 Census. Our review found a number of limitations to effective oversight, including lack of
integration of schedule activities and budget plan/expenditures, an unreliable cost estimate for
the decennial census, delayed risk management activities, and lack of transparency in monthly
status reports.

We will issue a separate memorandum to the Census Bureau director containing
recommendations to address issues identified as a result of our fieldwork. We have sent identical
letters to Senator Barbara A. Mikulski, Representative Alan B. Mollohan, and Representative
Frank R. Wolf.

If you have any questions, or if we can be of further assistance, please do not hesitate to contact
me at (202) 482-4661.




                                                      Sincerely,




                                                      Todd J. Zinser


Attachment
                        2010 Census: First Quarterly Report to Congress 
 
                                                                        Contents 
 
             
INTRODUCTION...................................................................................................................................................... 1
 
 
CHAPTER 1: LIMITATIONS IN CENSUS PROGRAM MANAGEMENT SYSTEMS REDUCE THE
 
USEFULNESS AND RELIABILITY OF MANAGEMENT INFORMATION .................................................... 4
 
 
CHAPTER 2: RISK MANAGEMENT PROGRAM IS BEHIND SCHEDULE.................................................13

                                                                                                         
 
CHAPTER 3: LACK OF TRANSPARENCY ON INFORMATION TECHNOLOGY SECURITY IN
 
MONTHLY STATUS REPORTS CASTS DOUBT ON  ACCURACY OF REPORTING..……………………..18
                       
 
APPENDIX A: CONGRESSIONAL LETTER TO CENSUS BUREAU .............................................................20

                                                                                                                  
 
APPENDIX B: OBJECTIVES, SCOPE, AND METHODOLOGY......................................................................22

                                                                                                                       
 
APPENDIX C: CENSUS 2010 LIFE­CYCLE CHART........................................................................................23

                                                                                                                                   
 
                       2010 Census: First Quarterly Report to Congress 
 
                                                               Introduction
                                                                      
The Supplemental Appropriations Act of 2008,
                                                                                  Automating Census Field Operations 
enacted June 30, 2008, gave the Census Bureau                                                           
an additional $210 million to help cover                                      Since first conducted in 1790, the
spiraling 2010 decennial costs stemming from                                  constitutionally mandated decennial census 
                                                                              field activities have largely been a paper‐
the bureau’s problematic efforts to automate                                  based operation. The 2010 Census plan 
major field operations via handheld computers,                                included significant expansion of
                                                                              automation, using handheld computers to 
major flaws in its cost-estimating methods, and                               verify addresses (address canvassing), 
other issues. The act’s explanatory statement                                 conduct in‐person surveys with households 
required the bureau to submit to the Senate and                               that did not return their questionnaires
                                                                              (nonresponse follow‐up), and collect data 
House Committees on Appropriations a detailed                                 from a nationwide sample to evaluate the
plan and time line of decennial milestones and                                accuracy of the decennial count (coverage
expenditures, and a quantitative assessment of                                measurement). Nonresponse follow‐up is the
                                                                              most expensive and labor‐intensive 
associated program risks within 30 days. It                                   operation of the decennial census. Increasing
further required OIG to provide quarterly                                     costs and automation problems prompted 
reports on the bureau’s progress against this                                 the bureau’s decisions to abandon the
                                                                              handhelds for nonresponse follow‐up and
plan. After encountering delays in preparing a                                coverage measurement operations, but to go
plan, Census completed its baseline submission                                forward with their use for address 
                                                                              canvassing.
requirements to Congress in May 2009. It                                       
consisted of key issues, program milestones,                                  An accurate census count is critical: the 
expenditures, program risks, and the overall                                  results are used to apportion legislative 
                                                                              districts at the federal and state levels and 
status of the decennial. This information and                                 distribute more than $300 billion annually in 
subsequent updates of the bureau’s progress are                               federal domestic assistance to local, state, 
the measures we reviewed in preparation of our                                territorial, and tribal governments. 
first quarterly report.

Our first quarterly report highlights the limitations in the Census Bureau’s ability
to oversee the systems and information for tracking schedule activities, cost, and
risk management activities. Future reports will focus on cost, schedule, and risk
management issues relevant to the life-cycle activities during the reporting period.

Background

The bureau was unable to submit its detailed plan within the required 30 days after
enactment of the Supplemental Appropriations Act of 2008. This delay occurred
because completion of the plan was predicated on modification of the Field Data
Collection Automation (FDCA) contract to reflect the diminished role for the
handhelds and other reductions in contractor support. Census had planned to have
FDCA revised by the end of July 2008 and to complete the reformulated decennial
plan soon thereafter. However, the contract modification was not completed until
November 2008. In January 2009, the Department of Commerce submitted
information intended to satisfy the act’s requirement to the House and Senate

US Department of Commerce                                                                                        OIG­19791­1
 
Office of Inspector General                                         1                                            August 2009
 
                          2010 Census: First Quarterly Report to Congress 
Appropriations subcommittees 1 with jurisdiction over Commerce, but the
subcommittees subsequently notified the bureau that the information was
inadequate (see appendix A for the subcommittees’ letter). They asked for a new
submission and further directed Census to immediately begin reporting monthly on
its progress against the revised plan.

Census officials met with the House and Senate subcommittees’ staff on April 16,
2009, and May 6, 2009, respectively, to review reports bureau managers use to
oversee cost, schedule, and risks for the 2010 program. One of these reports—the
Monthly Status Report (MSR)—contains high-level details on, among other things,
program status, milestones, budget versus expenditures, and key issues and risks,
and is used to brief senior Census and Commerce managers as well as OMB. The
bureau presented the February and March 2009 MSRs to the subcommittees.

OIG Oversight Pursuant to the Act

We have been monitoring the bureau’s replanning efforts, closely reviewing
decennial activities and materials regarding the 2010 schedule and the bureau’s
progress against key milestones, program-level risk management, and the FDCA
contract (see appendix B for a discussion of our objectives, scope, and methodology).
The MSRs have supplemented and further informed our oversight.

This quarterly report has three areas of focus: chapter 1, which describes several
long-standing systemic limitations in the bureau’s decennial management systems
that continue to impact its program management; chapter 2, which details our
observations on the status of risk management planning; and chapter 3, which
presents our observation about needed improvements to the accuracy of reporting in
the MSR. Figure 1 on the following page presents the 2009 decennial schedule;
appendix C presents the bureau’s life-cycle schedule for 2010 decennial activities
through 2013.




                                                        
1 Senate and House Subcommittees on Commerce, Justice, Science and Related Agencies.  



US Department of Commerce                                                                 OIG­19791­1 
Office of Inspector General                                    2                          August 2009 
                       2010 Census: First Quarterly Report to Congress 





US Department of Commerce                                                   OIG­19791­1
 
Office of Inspector General                                    3            August 2009
 
                       2010 Census: First Quarterly Report to Congress 
                                                               Chapter 1

                Limitations in Census Program Management Systems Reduce the
                     Usefulness and Reliability of Management Information

The Census Bureau’s ability to effectively oversee decennial progress has long been
hampered by inherent weaknesses in its systems and information for tracking
schedule activities, cost, and risk management activities. The overarching problem
is that these systems and information are not integrated in a manner that allows
for effective program management measured against earned value metrics: the
bureau is unable to measure cost, schedule, and performance 2 in an integrated or
holistic way (earned value) in support of the entire decennial against its plans for
all individual components in the 2010 life cycle. In other words, the bureau does not
have a direct link between the schedule of specific activities, the cost of those
activities, and the work actually accomplished, thus making it difficult to forecast
cost overruns and underruns because of this inability to generate earned value
measures. For example, a cost area may appear to be under budget when in reality
the money spent to date only accomplished a fraction of the planned work to be
performed. On the other hand, a cost area may appear to be on budget, yet the
money spent to date accomplished more work than planned. As a result, the bureau
could either end up spending 100 percent of its budget but only completing 75
percent of its activities, or it could complete 100 percent of its activities while
having spent only 75 percent of its budget.

OMB Circular A-11 requires that earned value management (EVM) be used as a
project (investment) management tool to effectively integrate the investment scope
of work with schedule and cost elements for investment planning and control of
major assets. Because EVM supports effective planning and control, it is beneficial
to the management of any major program, particularly a large, complex program
like the decennial census. A schedule that is aligned with the budget and scope of
work would give Census the ability to combine progress measurements in a single
integrated system and provide an early warning of cost, schedule, and performance
variances from the management plan. As the EVM standard states, “Without
earned value, one can only compare planned expenditures with how much has been
spent, which does not provide an objective indication of how much of the planned
work was actually accomplished.” 3

The Census Bureau acknowledges its limitation of not implementing an EVM
approach to manage the 2010 Census and told us it recognized mid-decade that the
lifecycle budget structure adopted at the beginning of the decade was poorly suited
                                                        
2 Performance refers to activity outputs such as physical products produced, milestones or technical 

performance goals achieved, and other indicators that will be used to measure progress. 
3 Government Electronics and Information Technology Association, EIA‐748B, Earned Value Management 

Systems, Arlington, VA, June 2007. 

US Department of Commerce                                                                     OIG­19791­1 
Office of Inspector General                                        4                          August 2009 
                          2010 Census: First Quarterly Report to Congress
to EVM integration with the detailed 2010 Census schedule. In an attempt to
compensate, the bureau stated it has implemented processes and mechanisms to
allow it to minimize the risks. However, because the bureau’s processes do not
provide an integrated view of cost, schedule, and performance for all decennial
activities, these efforts, while helpful, cannot fully compensate for the lack of EVM.
A discussion of the bureau’s specific limitations follows.

Project Management Systems and Data Are Not Integrated

Census maintains a schedule of activities for the 2010 Census that encompasses 44
major operations. The bureau’s current schedule (baselined on May 22, 2008), which
was derived from the 2008 dress rehearsal schedule, 4 is divided into five categories:
planning, logistics, systems, field operations, and assessments, and comprises
approximately 9,400 program- and project-level activities. These activities have
baseline start and finish dates, some of which may begin and/or end early without
affecting the overall schedule.

A small group of staff from the bureau’s
Decennial Management Division maintains Figure 3. Alert Report Activity Status Codes
overall control of the schedule, but staff
                                                    Red – more than 5 days late
members from individual project-level               Yellow – between 1-5 days late
teams across multiple divisions update the          Green – on time or early
status of their respective activities weekly.       Blue  – scheduling late, but low risk of
                                                            missing date
The schedule is monitored and modified
using a commercial project management           Source: Census Bureau
software program that generates “alert
reports” (see figure 2 on the next page) that show the status of decennial activities
(figure 3). The primary alert report used by Census management tracks activities
deemed critical to carrying out the decennial census.5 Changes to the schedule are
made primarily through a formal change request process. These weekly schedule
updates are beneficial to Census managers who need current information to
manage their projects. The Census Integration Group (CIG), composed of bureau
division chiefs, provides primary internal oversight for the schedule. This group
meets weekly to review the status of activities and other issues associated with the
2010 Census and take necessary actions to resolve any delays or problems with the
schedule as noted in the alert reports. Issues it cannot resolve are elevated to the
senior executive Decennial Leadership Group—the decision-making body for
decennial census matters. This group may choose to elevate certain issues to higher
level managers for resolution.


                                                        
4 The dress rehearsal is a large‐scale operational test that starts 2 years before the decennial census and is 
supposed to encompass all major operations included in the actual decennial enumeration.
5 The number of critical activities changes as the decennial progresses but has numbered between 50 and 60

activities in recent months. 

US Department of Commerce                                                                            OIG­19791­1
 
Office of Inspector General                                    5                                     August 2009
 
                       2010 Census: First Quarterly Report to Congress 

                                  Figure 2. 2010 Census Alert Report (as of May 26, 2009)




Source: Census Bureau



US Department of Commerce                                                                    OIG­19791­1 
Office of Inspector General                                    6                             August 2009 
                          2010 Census: First Quarterly Report to Congress 
Census monitors and analyzes the decennial
budget and expenditures at a very high level—        Figure 4. 2010 Decennial Frameworks
looking at six areas or “frameworks” (figure 4)—
                                                     1. Program Development and
via the MSRs, internal monthly financial                Management
management reports, and internal cost variance       2. Content, Questionnaires, and
analysis. Within these major areas, there are           Products
over 140 individual projects Census uses to          3. Field Data Collection and Support
                                                        Systems
manage cost. However, these projects do not          4. Automated Data Collection,
directly tie into the 44 major operations               Systems, and Data Capture
representing 9,400 program- and project-level        5. Census Design, Methodology, and
activities. The bureau primarily uses the               Evaluation
                                                     6. Census Test and Dress Rehearsal
Amended President’s Budget Request (the                 Implementation
baseline for FY 2009 Census expenditures),
MSRs, and Financial Management and Status of Source: Census Bureau
Funds reports to monitor actual costs against
budget. The monthly Financial Management report is generated by Commerce
Business Systems 6 and provides monthly and year-to-date budget and cost
information at a summarized project level. The related Status of Funds report
provides a detailed breakdown of the project budget and cost information, explains
significant variances, and estimates the end-of-year position for each project. With
this information, the bureau can estimate costs for each project area and track
expenditures on a monthly basis.

However, these two processes, one for managing schedule activities and the other
for budget and expenditures, operate independently of one another. This precludes
Census managers from tracking actual costs by individual activity, which is needed
to forecast any funding shortages or surpluses. In addition to this weakness, we
identified seven specific project management limitations that impact the bureau’s
management of the decennial census. They are as follows:

      •	 Not using critical path management. The decennial census schedule
         encompasses 44 major operations representing 9,400 program- and project-
         level activities that span several years. For some operations, more granular
         project tasks are not part of this schedule but are monitored independently
         by individual project managers. In the Spring of 2009, the bureau’s software
         program generated approximately 500 program- and project-level activities
         from the schedule as constituting its critical path. A critical path is typically
         calculated by the project management software after a comprehensive
         baseline review of all activities and represents the group of activities that
         must be completed on time or else the entire project is delayed. Managers
         typically employ this technique to monitor the progress of critical project

                                                        
6 Commerce Business Systems, which became operational in October 2003, is the Department’s integrated

financial management system.   

US Department of Commerce                                                                     OIG­19791­1 
Office of Inspector General                                    7                              August 2009 
                       2010 Census: First Quarterly Report to Congress 
            activities and to guide the decision-making process for the reallocation of
            resources when activities inevitably vary from the planned schedule.

            Due to the complex interrelationship of decennial operations, Census
            management determined the best approach to managing its schedule of
            decennial activities was not to use its software to create a single critical path
            encompassing all decennial projects. Further, the level of formal monitoring
            varies across projects and members of the CIG employ their experience and
            judgment to identify and monitor critical activities affecting multiple projects
            in a weekly alert report. The bureau’s schedule of activities for the decennial
            census continues to be a work in progress due to operations the bureau has
            not yet fully defined and problems it defines as “logic issues.” These issues
            combined with the uneven oversight of more granular tasks increase the risk
            of Census not accurately identifying activities critical to meeting its schedule.

      •	 No thorough up-front review of start and end dates. When the schedule was
         created, project teams did not thoroughly review activity start and end dates
         and their relationship to dependent projects to ensure a reasonable schedule.
         As a result, activities may have incorrect start and end dates. In addition, the
         order of when activities occur may not be correct. Census project teams are
         responsible for ensuring that their activities are correct and are working to
         make necessary changes. For example, after reviewing its activities earlier
         this year, Census’s Geography Division in March 2009 corrected the end
         dates of several geographic program activities from Sunday to Monday,
         allowing some activities to start at the same time instead of one needing to
         finish before the other begins. These types of problems cause critical
         activities to regularly appear to be behind schedule, though they are not.

            Census refers to this misleading schedule information as a “logic issue.”
            These issues are brought to the attention of the CIG after they have been
            reviewed by the respective project teams. In an attempt to distinguish
            activities defined as logic issues from those experiencing real delays, CIG
            created a new category designation (blue) in its critical activity alert report to
            track these problems. Given this subjective process, it is difficult to ascertain
            whether lower-level activities are experiencing actual delays or are affected
            by logic issues. It is possible that as the number of decennial projects
            increases in 2010, a larger number of “logic issues” may surface as critical
            activities are added to the alert report. With operations under way, Census
            project teams are reviewing their respective activities to improve the
            schedule’s reliability.

      •	 Limited integration of major contractor activities. The schedule contains
         milestone dates for deliverables associated with the bureau’s five major



US Department of Commerce                                                            OIG­19791­1
 
Office of Inspector General                                    8                     August 2009
 
                          2010 Census: First Quarterly Report to Congress 
             contracts, 7 but it does not include detailed contractor tasks and activities.
             Instead, the bureau relies on individual project offices to manually
             summarize the contractor’s progress across multiple tasks and activities. For
             example, the schedule contains an activity called “Test and Integrate Address
             Canvassing OCE & HHC Applications,” 8 which is part of the $798 million
             FDCA contract with Harris Corporation. This high-level activity encompasses
             many subactivities that are performed by the contractor but are not listed in
             the schedule. Therefore, managers cannot use the schedule to readily monitor
             the contractor’s progress for specific tasks that may be important to the
             schedule. Also, the bureau recently informed us that additional tasks and
             deliverables associated with its decennial response integration system and
             data access and dissemination system contracts still need to be added into
             the 2010 Census schedule.

      •	 No integration of schedule activities and budget plan/expenditure
         information. The Financial Management and Status of Funds reports and
         MSRs show cost variances. However, budget and expenditure information is
         not integrated with schedule and progress information. Thus, where budget
         variances show underruns, there is no formal way of determining whether an
         underrun occurs because an activity is less costly than its estimated budget
         or whether the activity is behind schedule. Similarly, where an overrun
         appears, it is unclear whether it is the result of the activity overrunning its
         budgeted cost or being ahead of schedule.

             The project management software used by Census has the capability to
             incorporate the planned budget and expenditure (actual cost) information
             into the schedule of activities. However, the bureau does not use this
             capability and does not have the decennial budget and schedule integrated. If
             Census managers used the project management software for its full
             budget/expenditure capability, they could better track the status of the
             operation to available funds and know of impending overruns so that funds
             can be reallocated promptly or that projects will have to be cancelled or
             delayed. Using this capability would also improve the transparency of
             decennial status to oversight and stakeholders.

             While it is too late in the 2010 decennial process to accomplish this
             integration, it would be beneficial for Census to attempt to complete an
             integration activity for one component of its operation, such as nonresponse
             follow-up, as a benchmark for 2020.


                                                        
7 Apart from FDCA, the bureau manages four additional contracts collectively worth another $1.1 billion for

printing, integrated communications, and the development of a data access and dissemination system and a 
decennial response integration system. 
8 OCE refers to the office computing environment while HHC refers to the handheld computer. 



US Department of Commerce                                                                         OIG­19791­1 
Office of Inspector General                                    9                                  August 2009 
                          2010 Census: First Quarterly Report to Congress 
      •	 Unreliable cost estimate. In addition to the limitations in evaluating cost
         variances, the Government Accountability Office (GAO) reported in June
         2008 that the bureau’s 2010 life-cycle cost estimate is not reliable because it
         lacks adequate documentation and is not comprehensive, accurate, or
         credible. 9 GAO recently informed us that the bureau plans to make
         improvements to its 2020 life-cycle cost estimate per GAO’s recommendations
         and intends to provide more detailed background information on calculations
         and justifications for funding levels. However, the overall limitations of the
         2010 life-cycle cost estimate remain. The current life-cycle cost estimate has
         grown from $11.5 billion to $14.7 billion in the course of 2 years. This
         increase in the life-cycle cost was caused primarily by the problems in
         developing the handheld computers, which prompted the decision to return to
         a paper-based nonresponse follow-up operation and an increase in projected
         costs resulting from changes in assumptions made earlier in the decade but
         recently revised.

      •	 Lack of transparency in use of contingency funds. Contingency funds, or
         management reserves, are key components of risk mitigation in a program
         the size of the decennial census. The bureau’s monthly financial reporting
         system shows decennial operations that are both over budget and under
         budget in any given month as well as numerous FY 2009 operating plan
         adjustments. From an oversight perspective, it is not clear why or when the
         bureau has determined that it must draw from its contingency reserve rather
         than realigning its operating plan to draw money from operations with
         budget underruns. The FY 2009 contingency budget was $200 million.
         Enhancing the bureau’s MSRs to include documentation of these
         modifications is necessary in understanding why and when Census must
         draw from its reserve. Census agrees that additional documentation would be
         beneficial and stated that for its FY 2010 budget, it intends to establish
         discrete projects for each use of contingency funds so that actual costs for
         major field operations are recorded accurately and available for review. It
         further stated that it would attempt to incorporate this information into its
         MSRs.

      •	 Lack of systematically documented program and funding decisions. We
         reviewed selected Census decision documents and expenditures for the 2010
         Census 10 and found that Census produces a variety of memoranda series,
         including 2010 Decision, 2010 Planning, 2008 dress rehearsal, and all mid-
         decade testing. These memoranda have addressed a variety of topics ranging
         from the 2010 Census American Indian and Alaska Native Logo to the Final
                                                        
9 US Government Accountability Office, June 2008. 2010 Census: Census Bureau Should Take Action to Improve 
the Credibility and Accuracy of Its Cost Estimate for the Decennial Census, GAO­08­554. Washington, DC. 
10 This review was in response to a separate request on April 23, 2008, by then‐Secretary of Commerce 

Gutierrez for the Department’s obligation to respond to the Committee on Appropriations. 

US Department of Commerce                                                                        OIG­19791­1 
Office of Inspector General                                    10                                August 2009 
                          2010 Census: First Quarterly Report to Congress 
             Demographic and Housing Content for the 2008 Census Dress Rehearsal and
             the 2010 Census. However, there are no documented policies on what
             decisions or events require a memorandum or what the content should be. In
             addition, there is no clear linkage among these memorandums and budget
             requests, spend plans, or expenditures.

             The lack of a systematically documented set of decisions reduces the
             transparency of decision making and prevents stakeholders from being
             informed of potentially significant trade-offs and changes in Census’s
             approach. For example, in a June 2001 document presenting the potential
             life-cycle cost savings of the 2010 Census design, the bureau estimated $155
             million in savings could be achieved by maintaining and updating the
             address list throughout the decade and using a targeted approach to address
             listing. The reduction also depended on the use of GPS equipped handheld
             devices to reduce time and travel costs. This design would avoid an end-of-
             decade massive address listing operation. In March 2004, Census issued a
             planning memorandum that stated the bureau no longer believes “we can
             assume this approach will be perfected for 2010” and included a previously
             assumed savings of $38 million back into the cost model.

             However, the justification and rationale for reverting back to a 100 percent
             address canvassing approach was not documented in any of Census’s
             decision, planning, or information memoranda, and some stakeholders were
             unaware of the change. A 2004 report by the National Research Council
             states that at a September 2003 meeting, Census expressed surprise that the
             Research Council was assuming it would pursue targeted address
             canvassing. Census maintained that a full block canvass was always part of
             the bureau’s 2010 plan. The Research Council’s report goes on to say,
                     
                    We respectfully disagree; part of the tenor we recall in early  
                    discussion of the MAF/TIGER Enhancement Program was the  
                    need for continuous address updating over the next decade in order  
                    to avoid a block canvass. The Census Bureau’s document on projected  
                    life-cycle costs of the 2010 census suggests the desire to replace a last-
                    minute canvass with continuous updating. 11 

             In addition to the lack of a systematic and visible way of ensuring significant
             decisions are documented, there is no traceability from the bureau’s stated
             $38 million increase to the life-cycle cost resulting from the change to the
             estimated address canvassing price tag at that time. While we do not
             question Census’s need to makes changes to its plans to adapt to a changing
             environment over the decade, it needs to develop a robust and transparent
                                                        
11 National Research Council, Reengineering the 2010 Census: Risks and Challenges, The National Academies 

Press, Washington, D.C., p.87. 

US Department of Commerce                                                                         OIG­19791­1 
Office of Inspector General                                    11                                 August 2009 
                       2010 Census: First Quarterly Report to Congress 
            process to document significant decisions and trade-offs in order to
            understand estimated costs. Census agrees that additional documentation
            regarding its program funding decisions could provide its stakeholders with
            greater insight into trade-offs and program choices.




US Department of Commerce                                                        OIG­19791­1
 
Office of Inspector General                                    12                August 2009
 
                       2010 Census: First Quarterly Report to Congress 
                                                               Chapter 2

                             Risk Management Program Is Behind Schedule


Census’s current risk management plan (issued
June 6, 2008) establishes processes and                                     Figure 5. Rating Scales for
                                                                                      Decennial Risks
procedures for monitoring program- and project-
level risks, and identifies staff responsible for                           The rating scales for the probability of
                                                                            occurrence are:
managing these activities.
                                                                               (1)   extremely unlikely
                                                                               (2)   not likely
Program-level risks are those that may impact                                  (3)   even chance
overall program cost, schedule, and technical                                  (4)   likely
and compliance objectives. Project-level risks are                             (5)   extremely likely
confined to a single project or operation.
                                                                            The rating scales for impact areas are:

Each program-level risk must have a plan that          (1) insignificant or none
                                                       (2) minimal
defines mitigation strategies and specific             (3) moderate
actions, time frames, and people for                   (4) substantial
implementing them. Authority to implement the          (5) major
risk management plan and its related processes
                                                    Source: Census Bureau
ultimately resides with the associate director for
decennial census. The Risk Review Board–—a
subgroup of the Census Integration Group—plays a key role in overseeing risk
management activities. The risk management plan also requires contingency plans
for addressing certain risks triggered by a missed date or specific event and that
these plans be completed well in advance of the expected trigger. The
aforementioned efforts represent a significant improvement over the 2000
decennial, which lacked a formal risk management process.

In fall 2007, the associate director for decennial census and the Decennial
Management Division chief discussed the areas of concern with the 2010 Census.
Census staff worked with an outside consultant to organize the risk framework and
prepare a baseline “risk register” of 24 program-level risks. The register describes
each risk and identifies the manager responsible for it; the likely impact on cost,
schedule, technical performance, and oversight; and possible time frames and the
probability of occurrence: red is likely (high), yellow is somewhat likely (medium),
and green is unlikely (low). Values are assigned, on a scale from 1 to 5 (see figure 5),
by each program’s risk manager, who is the subject matter expert. Figure 6 shows
the highest risks facing the 2010 decennial per the bureau’s June 2009 risk register.




US Department of Commerce                                                                                   OIG­19791­1
 
Office of Inspector General                                        13                                       August 2009
 
                          2010 Census: First Quarterly Report to Congress 





Out of the seven red risks identified, “Late Design Change” has the highest risk
rating possible, with all 5s. The column for “Oversight” contains the highest
concentration of 4s and 5s and consistently receives the highest risk scores relative
to cost, schedule, and technical impact areas. 12 According to the risk management
plan, the compliance and oversight impact area provides information on “a risk’s
potential to impact the program’s ability to meet the compliance mandates and
oversight requirements of Congress and other key stakeholders including GAO.”
However, the manner in which the table is presented suggests oversight is a risk
when, in fact, the risk is associated with compliance requirements, such as
statutory deadlines, appropriations law, Departmental IT security policies, or the
Federal Acquisition Regulation. The status and changes in status of all 24 risks,
including the seven red-rated risks, between October 2008 and June 2009 are
shown in Figure 7.

Risk Management Limitations
      •	 Risk management activities are behind schedule. Staff finalized mitigation
         plans in June and are still working on contingency plans for a number of
         activities, largely because the risk management process started late and the
         plan was released very close to the start of major 2010 Census operations. As
         a result of the late release, the Risk Review Board only began meeting
         regularly and reviewing completed mitigation plans in January 2009. The
         June MSR reported that, while all 24 risk mitigation plans were approved,
         not one contingency plan has been approved. However, as late as the May
         MSR, the risk mitigation plan for “Inaccurate Puerto Rico Address List” was
         not approved even though certain risk mitigation activities correlate with
         address canvassing, which was recently completed. In addition, “Continued
         Operations of Critical Infrastructure During Disasters” did not have
         mitigation or contingency plans in place before address canvassing began,
         although due to its importance, it is one of the initial risk areas identified for
         a contingency plan by the Risk Review Board.

             Census selected 11 of the 24 program-level risks to have contingency plans
             developed. However, the bureau did not document its rationale for
             determining whether or not a risk warranted a contingency plan. Census

                                                        
                                                                                     
12 The risk management plan refers to this impact area as “compliance and oversight.”



US Department of Commerce                                                                OIG­19791­1 
Office of Inspector General                                    14                        August 2009 
                       2010 Census: First Quarterly Report to Congress 
            should develop a transparent process for documenting significant risk
            management decisions so that stakeholders can understand management’s
            actions.

            Census relies on teams of subject matter experts for quick and informal
            decisions to resolve problems as they emerge. Without contingency plans,
            when risks are realized, Census may need to quickly develop contingencies
            that may not be the best solution, rather than follow a well-thought-out plan.
            Without the completion and link between the program-level mitigation and
            the project-level contingency plans, Census has no definition of triggering
            events—those events that present specific risks and could invoke a
            contingency operation. Finally, because the development, review, and
            approval of these plans have been time and resource intensive, risk managers
            have not begun reporting on the status of actions within individual plans, as
            required by the risk management plan.




US Department of Commerce                                                         OIG­19791­1
 
Office of Inspector General                                    15                 August 2009
 
                       2010 Census: First Quarterly Report to Congress 

                                                  Figure 7. Risk Status (as of June 24, 2009)

                                                                                                          Color 
    Risk Grouping                                              Risk Name
                                                                                                Oct. 2008    June 2009
                               Handheld Solution                                                  High        Medium
                               Contract Management Issues                                         High         High
                               Late Design Change                                                 High         High
    Operations and
                               Address Canvassing and Group Quarters Validation
    Systems Risks                                                                                 High        Medium
                               Operational Control System Solutions
                               2010 Operational and System Failures                               High             High
                               FDCA Decentralization/Reintegration                                High             High
 
                               Housing Unit Duplicates and Misses                                High          High
                               Exception Enumeration Quality                                     Low           Low
     Quality Risks             Inaccurate Puerto Rico Address List                               High         Medium
                               Data Quality                                                     Medium        Medium
                               Person Overcoverage and Undercoverage                              *           Medium
 
                               IT Security Breach                                                High         Medium
       Public                  Loss of Confidential Data                                         High         Medium
     Cooperation               Respondent Cooperation                                           Medium        Medium
        Risks                  Stakeholder Support                                              Medium        Medium
                               Immigration Policy Backlash                                      Medium        Medium
 
    Major Disasters            Major Disaster's Effect on Population                            Medium             High
       Affecting               Continued Operations of Critical Infrastructure During
                                                                                                  High        Medium
      Population               Disasters
 
                               Permanent Staff Retention                                        Medium             Low
    Staffing Risks 
                               Inability to Recruit Sufficient Temporary Workforce               High              Low
 
                               Uncertainty of Assumptions in Cost Model                         Medium        Medium
     Budget Risks              Continuing Resolution                                             Low          Medium
                               Insufficient Funding                                             Medium        Medium
 
        Schedule               Falling Behind Schedule on Key Milestones                        Medium             High
 
*In February 2009, the MSR provided a new risk to include Person Overcoverage and Undercoverage 
Source: OIG Analysis of Census Bureau Risk Registers


      •	 The quality and content of mitigation plans vary. In many cases, the
         mitigation plans provide limited information on actions, resources, and time
         frames required for their implementation. For example, the risk mitigation
         plan for “2010 Operational and System Failures,” a red-rated risk, lacks
         actions and milestone dates to fulfill mitigation strategies. This plan has a
         crucial function—ensuring that multiple IT systems properly integrate with
         operational plans, methods, and procedures without disrupting operations,
         losing data, or compromising data quality. Without actions and milestones for
         mitigating particular risks, Census is unable to provide direction, monitor the

US Department of Commerce                                                                                           OIG­19791­1
 
Office of Inspector General                                          16                                             August 2009
 
                       2010 Census: First Quarterly Report to Congress 
            status and progress of documented risk mitigation activities versus planned
            milestones, and ensure accountability of planned actions against actions
            taken.
 




US Department of Commerce                                                        OIG­19791­1
 
Office of Inspector General                                    17                August 2009
 
                       2010 Census: First Quarterly Report to Congress 
                                                               Chapter 3
    Lack of Transparency on Information Technology Security in Monthly 

            Status Reports Casts Doubt on Accuracy of Reporting 


We found that Census did not clearly and accurately report on the status of the risk
associated with the FDCA system, which includes the handheld computers, and
removed it from the key issues portion of the MSR, even though the issue had not
been adequately resolved. These actions call into question the validity of the
bureau’s reporting on other decennial risks.

A critical section of the MSR, from the perspective of oversight officials, is the status
of key issues presented in the initial pages of the report. This section of the MSR
identifies these issues; rates them as green, yellow, or red depending on their
severity; provides a target date for their resolution; and includes a synopsis of each
issue and how it is being addressed. An example of this reporting is presented in
table 1 for the December 2008 MSR.




US Department of Commerce                                                       OIG­19791­1
 
Office of Inspector General                                       18            August 2009
 
                          2010 Census: First Quarterly Report to Congress 
Because Harris was having difficulty meeting the IT security requirements of the
FDCA contract, system certification and accreditation 13 was delayed and was
reported as a key issue in the first MSR in October 2008. The October 2008 MSR
indicated that FDCA had received authorization to operate (ATO) or accreditation
for a portion of the system needed to support address canvassing. But the report
went on to say there was still a very tight schedule to get full system accreditation
for address canvassing by February 3, 2009.

Census continued to report on FDCA IT security as a medium to high risk in the
MSRs until February 2009, when it showed the status as green and stated that it
had received partial authority to operate in October 2008, which allowed address
canvassing to start as scheduled. However, none of the MSRs reported that the
October 2008 ATO contained a condition that required that Census obtain a new
ATO in the December or January time frame based on additional testing to verify
that existing and new controls were in place and operating effectively.

Although the status was recategorized to green and the issue portrayed as resolved,
in the February MSR, the conditions of the October ATO had not been met and
subsequent concerns arose that, in our opinion, should have kept the issue as a high
risk in the MSRs. We have also prepared a separate briefing for the Department
and Census Bureau on our findings.

The lack of transparency in the reporting of this key issue raises concerns about the
accuracy and transparency of other elements in the MSRs. Census needs to
strengthen its process for preparing and reviewing the MSRs to ensure that all key
issues and significant risks—as well as all other information—are fully and
accurately reported.




                                                        
13 Certification is a comprehensive assessment of security controls implemented in a computer system. It

determines whether controls are implemented correctly, operating as intended, and meeting the security 
requirements for the system. Accreditation is management’s formal authorization to allow a system to 
operate. It includes an explicit acceptance of the risks posed by any identified remaining vulnerabilities. 
Through accreditation, senior agency officials take responsibility for the security of systems they manage and 
for any adverse impacts should a breach in security occur. 

US Department of Commerce                                                                           OIG­19791­1 
Office of Inspector General                                    19                                   August 2009 
                       2010 Census: First Quarterly Report to Congress 

                               Appendix A: Congressional Letter to Census Bureau




US Department of Commerce                                                           OIG­19791­1
 
Office of Inspector General                                    20                   August 2009
 
                       2010 Census: First Quarterly Report to Congress 





US Department of Commerce                                                   OIG­19791­1
 
Office of Inspector General                                    21           August 2009
 
                       2010 Census: First Quarterly Report to Congress 
                                  Appendix B: Objectives, Scope, and Methodology 

To satisfy our requirement for this initial quarterly report on 2010 decennial
activities, we focused on 2010 Decennial Census program management systems and
documentation. Our objective was to determine the reliability of the information
and identify areas where program management or reporting could be improved. We
also sought to understand the risk management process and identify potential risks
that may hinder the completion of 2010 Decennial Census activities. This report
also responds to then-Secretary of Commerce Gutierrez’s request that we examine
decision documents and expenditures to address the Department’s affirmative
obligation to respond to the Committee on Appropriations.

To accomplish our objectives, we conducted an extensive review of documentation,
including MSRs, activities schedules and associated change requests, program
management reviews (primarily FDCA activities), updates to plans for Census-
managed activities such as the help desk and paper-based operations, Financial
Management and Status of Funds reports, budget variance reports, risk registers,
and contingency and mitigation plans for program-level risks. We began reviewing
information regarding 2010 Decennial Census activities in July 2008 on a limited
basis. We also have been attending weekly schedule and risk management meetings
at the bureau since February 2009.

The majority of this review was conducted between February and June 2009, under
the authorities of the Inspector General Act of 1978, as amended, and Departmental
Organization Order 10-13, dated August 31, 2006, as amended, and in accordance
with the Quality Standards for Inspections (revised January 2005) issued by the
President's Council on Integrity and Efficiency.




US Department of Commerce                                                            OIG­19791­1
 
Office of Inspector General                                    22                    August 2009
 
                       2010 Census: First Quarterly Report to Congress 
                                        Appendix C: Census 2010 Life­Cycle Chart 
                                                             
                                                             




Source: Census Bureau


US Department of Commerce                                                            OIG­19791­1
 
Office of Inspector General                                    23                    August 2009
 
